No. 20-107
IN THE
___________

CEDAR POINT NURSERY
and FOWLER PACKING COMPANY, INC.,
PETITIONERS,
V.

VICTORIA HASSID, in her official capacity as,
Chair of the Agricultural Labor Relations Board; et al.,
RESPONDENTS.
___________

On Writ of Certiorari to the
U.S. Court of Appeals for the Ninth Circuit
__________
BRIEF OF THE LIBERTY JUSTICE CENTER AS
AMICUS CURIAE IN SUPPORT OF PETITIONERS
__________

January 7, 2021

Jeffrey M. Schwab
Counsel of Record
Daniel Suhr
Reilly Stephens
LIBERTY JUSTICE CENTER
208 LaSalle St., Ste. 1690
Chicago, IL 60604
(312) 637-2280
jschwab@libertyjusticecenter.org

i
QUESTION PRESENTED
The question presented is whether the uncompensated appropriation of an easement that is limited in
time effects a per se physical taking under the Fifth
Amendment?

ii
TABLE OF CONTENTS
QUESTION PRESENTED ................................................ i
INTEREST OF THE AMICUS CURIAE....................... 1
INTRODUCTION AND SUMMARY OF THE
ARGUMENT ................................................................ 2
ARGUMENT ........................................................................ 3
Property rights cannot be subordinated to the right to
organize when unions have reasonable
alternative means of communication. .................... 3
CONCLUSION .................................................................. 13

iii
TABLE OF AUTHORITIES
Cases
Amalgamated Food Empolyees Union v. Logan Valley
Plaza, 391 U.S. 308 (1968) ................................... 5, 6
Cent. Hardware Co. v. NLRB, 407 U.S. 539 (1972) 4, 7
Cooper v. California, 386 U.S. 58 (1967) .................... 9
Horne v. Dep’t of Agric., 576 U.S. 351 (2015)............ 10
Hudgens v. NLRB, 424 U.S. 507 (1976) ...................... 8
Lechmere, Inc. v. NLRB, 502 U.S. 527 (1992) 4, 10, 11
Lloyd Corp. v. Tanner 407 U.S. 551 (1972) ............ 3, 7
Loretto v. Teleprompter Manhattan Catv Corp., 458
U.S. 419 (1982) ....................................................... 10
Marsh v. Alabama, 326 U.S. 501 (1946). .................... 5
NLRB v. Babcock & Wilcox Co., 351 U.S. 105 (1956).
.............................................................................. 3, 5
NLRB v. Town & Country Elec., 516 U.S. 85 (1995) . 2,
12
Nollan v. Cal. Coastal Com, 483 U.S. 825 (1987) ..... 10
PruneYard Shopping Center v. Robins, 447 U.S. 74
(1980) ........................................................................ 9
Sears v. San Diego County District Council of
Carpenters, 436 U.S. 180 (1978). ............................. 9
The Civil Rights Cases, 109 U.S. 3 (1883) .................. 6
Thunder Basin Coal Co. v. Reich, 510 U.S. 200 (1994)
.................................................................................. 4

1
INTEREST OF THE AMICUS CURIAE1
The Liberty Justice Center is a national, nonprofit,
nonpartisan, public-interest litigation center that
seeks to protect economic liberty, private property
rights, free speech, and other fundamental rights. The
Liberty Justice Center pursues its goals through strategic, precedent-setting litigation to revitalize constitutional restraints on government power and protections for individual rights. See, e.g., Janus v. AFSCME, 138 S. Ct. 2448 (2018).
The Liberty Justice Center is headquartered in
Chicago, Illinois, and is interested in this case because
the protection of private property rights is a core value
vital to a free society. To that end, the Liberty Justice
Center represents property owners in a variety of
cases around the country. See, e.g. Leibundguth Storage & Van Serv., Inc. v. Vill. of Downers Grove, 939
F.3d 859, 860 (7th Cir. 2019); Mendez v. Chicago, Cook
County Illinois Chancery Court No. 16 CH 15489;
United States v. Ford, Southern District Of New York
No. 7:19-cv-09600-KMK.

Rule 37 statement: All parties received timely notice of intent to file this brief. Petitioners filed a blanket consent, and the Respondent consented to the filing of this brief. No counsel for any party authored any
part of this brief, and no person or entity other than
amicus funded its preparation or submission.
1

2
INTRODUCTION AND
SUMMARY OF THE ARGUMENT
This is not the first case in which this Court has
faced a conflict between the rights of private property
owners and the desire of unions to organize. Even in
the context of labor relations, this Court has consistently recognized that private property owners retain
the fundamental right to exclude. See Pet. at 26; see,
e.g., NLRB v. Town & Country Elec., 516 U.S. 85, 97
(1995). The Fifth Amendment provides that private
property rights may not be wantonly abridged by any
state just because the abridgment serves some public
policy interest. Simply because California believes the
right of employees to associate with a union is important does not confer an open-ended warrant to advance that interest by forcing an easement of Petitioners’ property without compensation.
This Court has repeatedly held that unions have no
right to usurp others’ private property unless they can
show that the infringement is necessary, in the most
literal sense, such that no other reasonable avenues by
which to contact employees are available. The Court
has primarily addressed this question in the context of
federal law, whereas this case involves a state regulation of labor relations. But the respect for private property rights embodied in those cases was not specific to
the Wagner Act, but rather grounded in the fundamental protection for property rights the Constitution requires all statutes and regulations to respect.
This Court should reverse the decision below, and
in doing so reiterate that employees’ First Amendment
rights of association are important, but their importance does not allow state governments to freely
abridge others’ Fifth Amendment rights to exclude,

3
which is essential to traditional understandings of private property, for mere convenience.
ARGUMENT
Property rights cannot be subordinated to the
right to organize when unions have reasonable
alternative means of communication.
In assessing rights of third parties to access private
property for their own, even legitimate, ends, this
Court’s cases repeatedly emphasize that “the Fifth and
Fourteenth Amendment rights of private property
owners, as well as the First Amendment rights of all
citizens, must be respected and protected.” Lloyd Corp.
v. Tanner, 407 U.S. 551, 570 (1972). In the labor context, where the rights of employers are circumscribed
by the legal rights of employees to organize, this Court
holds that since “[o]rganization rights are granted to
workers by the same authority, the National Government, that preserves property rights”, any “[a]ccommodation between the two must be obtained with as
little destruction of one as is consistent with the
maintenance of the other.” NLRB v. Babcock & Wilcox
Co., 351 U.S. 105, 112 (1956).
But this does not mean than the right to organize
stands on equal footing with the rights of private property owners to exclude interlopers. Rather, this Court
holds that labor rights may only overcome private
property rights where “the inaccessibility of employees
makes ineffective the reasonable attempts by nonemployees to communicate with them through the usual
channels.” Id. In other words, the protection of labor
rights “do[es] not authorize trespasses by nonemployee

4
organizers” except where there is in practice no other
reasonable way for organizers to contact employees.
Lechmere, Inc. v. NLRB, 502 U.S. 527, 537 (1992). And
by “reasonable,” this Court did not mean “most convenient.” Rather, it has explained that its “reference to
‘reasonable’ attempts was nothing more than a commonsense recognition that unions need not engage in
extraordinary feats to communicate with inaccessible
employees — not an endorsement of the view (which
[the Court] expressly rejected) that the Act protects
‘reasonable’ trespasses.” Id.
The Court’s cases addressing this issue primarily
arise in the context of applications of the National Labor Relations Act to employers and employees covered
by that statute, unlike the employers and employees
in this case. But this Court has not grounded its accommodation of private property rights in some text or
legislative history of the NLRA, nor claimed that this
is required as a matter of sensible federal labor policy.
See Thunder Basin Coal Co. v. Reich, 510 U.S. 200, 217
n.21 (1994) (“while this [property] right is not superseded by the NLRA, nothing in the NLRA expressly
protects it”). Instead, it has based its requirement that
labor rights accommodate private property rights in
the fundamental guarantees of our founding documents, since it would “constitute an unwarranted infringement of long-settled rights of private property
protected by the Fifth and Fourteenth Amendments”
to subordinate basic rights to property in the name of
labor peace. Cent. Hardware Co. v. NLRB, 407 U.S.
539, 547 (1972).
The cornerstone of this Court’s teaching on the
matter remains Babcock, which consolidated several
cases with the same basic fact common to each: “the

5
employer refused to permit distribution of union literature by nonemployee union organizers on companyowned parking lots.” 351 U.S. at 106. In other words,
essentially the same facts as this case, except in a different industry. The Court found that “an employer
may validly post his property against nonemployee
distribution of union literature if reasonable efforts by
the union through other available channels of communication will enable it to reach the employees with its
message and if the employer's notice or order does not
discriminate against the union by allowing other distribution.” Id. at 112. If neither condition — other
channels of communication being cut off, or the employer discriminatorily allowing others the same sort
of access to his property — is satisfied, Babcock holds
that “the employer may not be compelled to allow distribution even under such reasonable regulations” as
a government may come up with. Id.
This Court briefly flirted with another standard,
but only for a few years. In Amalgamated Food Empolyees Union v. Logan Valley Plaza, this Court dealt with
Pennsylvania’s application of standard principles
against trespass to union picketing in a shopping center. 391 U.S. 308, 315 (1968). The Court analogized the
shopping center, a retail space generally available to
the public, to its earlier decision in Marsh v. Alabama,
326 U.S. 501 (1946).
Marsh addressed the right of Jehovah’s Witnesses
to distribute religious literature on a ‘public’ sidewalk
on a ‘public’ street in a “so-called town” wholly owned
and run by the Gulf Shipbuilding Corporation. Id. at
502–3. This was a “company town” scenario, in which
a private company was assuming the form and carrying out the functions of a municipal corporation —

6
owning all housing, streets, stores, providing services
like basic utilities and trash pickup — to the point
where “there is nothing to distinguish them from any
other town and shopping center except the fact that
the title to the property belongs to a private corporation.” Id. This presented a conundrum for First
Amendment law, which generally requires state action. See The Civil Rights Cases, 109 U.S. 3 (1883). The
Court in Marsh held that, in the context of a “company
town,” the private company had in practice become
The State, and should be required to respect the rights
of private third parties to speak in the public spaces it
controlled.
Logan Valley extended Marsh to the (then relatively new and exotic) context of a large public shopping mall, finding that it saw “no reason why access to
a business district in a company town for the purpose
of exercising First Amendment rights should be constitutionally required, while access for the same purpose to property functioning as a business district
should be limited simply because the property surrounding the ‘business district’ is not under the same
ownership.” 391 U.S. at 319. “Ownership does not always mean absolute dominion,” the Court explained.
Id. at 325. “The more an owner, for his advantage,
opens up his property for use by the public in general,
the more do his rights become circumscribed by the
statutory and constitutional rights of those who use
it.” Id. Therefore, the mall was “the functional equivalent of a ‘business block,’” a la Marsh, and “for First
Amendment purposes must be treated in substantially
the same manner.” Id. Following this logic, the Court
found that unions had a First Amendment right to

7
carry out their activities on private property that overrode owners’ right to exclude.2 Thankfully, this decision did not stand for very long.
The Court first reassessed Logan Valley’s right of
union access in a context distinct from labor activity —
handbilling against the Vietnam War. Like Logan Valley, the property owner in Lloyd Corp. v. Tanner operated a retail space in which third parties wished to
spread their message. 407 U.S. 551, 552–53 (1972).
The Court rejected analogies to Logan Valley, however, and commented that dicta in Logan Valley suggesting that “whenever a privately owned business
district serves the public generally its sidewalks and
streets become the functional equivalents of similar
public facilities” would be an “an incorrect interpretation of the Court’s decision in Marsh.” Id. at 562. It
therefore more or less limited Logan Valley to its facts,
but declined to overrule it. See id. at 563.
That same year, the Court likewise refused to apply
Logan Valley to a union organizing campaign. In Central Hardware Co. v. NLRB, as in Bobstock, nonemployee union organizers solicited employees in a private parking lot. 407 U.S. at 540–41. The Court rejected the idea that Logan Valley meant that any property “open to the public” was fair-game for union organizing, since “[t]o accept it would cut Logan Valley
entirely away from its roots in Marsh. It would also
constitute an unwarranted infringement of long-settled rights of private property protected by the Fifth
and Fourteenth Amendments.” Id. at 547. Union organizers had no general right to enter onto private
In the context of a space generally open to the public, which is not the case of Petitioners here.
2

8
property, even retail property that might be generally
open to private patrons, for the purposes of soliciting
membership. To suggest so was to ask for an unwarranted infringement of the property rights protected
by the Fifth Amendment. Instead, the Court applied
Babcock, holding that the property owner’s right to exclude, even from public spaces, must be respected, emphasizing that “the principle of accommodation announced in Babcock is limited to labor organization
campaigns, and the ‘yielding’ of property rights it may
require is both temporary and minimal.” Id. at 545.
Just a few years later, the Court finally put Logan
Valley out of its misery. In Hudgens v. NLRB, striking
unionized warehouse workers picketed a retail location of their employer inside a private mall. 424 U.S.
507, 509 (1976). Employees of the shopping center (rather than their employer) demanded they leave, since
they were on the shopping center’s property. The
Court held that Logan Valley did not grant the picketers a right to trespass in the shopping center, finding
that “the rationale of Logan Valley did not survive the
Court’s decision in the Lloyd case” since “the ultimate
holding in Lloyd amounted to a total rejection of the
holding in Logan Valley.” Id. at 518. As in Central
Hardware, the Court explained that Babcock’s language allowing for some accommodation of union activity in derogation of property rights did not mean
they were equally important; rather under federal law
“[t]he locus of that accommodation, however, may fall
at differing points along the spectrum depending on
the nature and strength of the respective § 7 rights and
private property rights asserted in any given context.”
Id. at 522.

9
Two years later, in Sears v. San Diego County District Council of Carpenters, the Court elaborated that
“the burden imposed on the union is a heavy one” and
therefore “the balance struck by the [NLRB] and the
courts under the Babcock accommodation principle
has rarely been in favor of trespassory organizational
activity.” 436 U.S. 180, 205 (1978). The employer’s
property right to exclude “remains the general rule.”
Id. “To gain access, the union has the burden of showing that no other reasonable means of communicating
its organizational message to the employees exists or
that the employer’s access rules discriminate against
union solicitation.” Id.
Next in this saga of interrelated precedents came a
non-labor case, PruneYard Shopping Center v. Robins,
447 U.S. 74 (1980). Like Lloyd, PruneYard dealt with
conventional First Amendment activity at a private
shopping mall — soliciting petition signatures regarding a U.N. resolution. Unlike Lloyd, the state high
court had held that the state constitution’s cognate of
the federal free speech clause required that state law
property rules be subordinated to the speech at issue.
The Court distinguished Llyod on this basis, holding
that it did not “limit the authority of the State to exercise its police power or its sovereign right to adopt in
its own Constitution individual liberties more expansive than those conferred by the Federal Constitution.”
Id. at 81 (citing Cooper v. California, 386 U.S. 58, 62
(1967)). It was not the role of federal law “to define
‘property’ in the first instance.” Id. at 84. Therefore,
California’s limit on the right to exclude was acceptable.
PruneYard was foundational to the Ninth Circuit’s
decision below. And as Petitioners frankly

10
acknowledge, PruneYard represents “the low-water
mark for the right to exclude.” Pet. at 27. However, in
the four decades since the decision in PruneYard, this
Court has repeatedly cabined or distinguished its application. This Court has said several times that
PruneYard is limited to the context of a property
owner who voluntarily opens his land as a public
space. See id. (quoting Loretto v. Teleprompter Manhattan Catv Corp., 458 U.S. 419, 434 (1982) (“the
owner had not exhibited an interest in excluding all
persons from his property”)); Nollan v. Cal. Coastal
Com, 483 U.S. 825, 832 n.1 (1987) (PruneYard did not
apply “since there the owner had already opened his
property to the general public, and in addition permanent access was not required”); Horne v. Dep’t of Agric.,
576 U.S. 351, 364 (2015) (PruneYard applied to “an already publicly accessible shopping center”).
This Court righted the ship in Lechmere, Inc. v.
NLRB, 502 U.S. 527 (1992), which Petitioners rightly
explain “recognized the fundamental nature of the
right to exclude as it arises in labor relations.” Pet. at
26. As in this case, Lechmere addressed a labor organizing campaign — but unlike this case of private property not open to the public, Lechmere involved union
access to a public retail parking lot. 502 U.S. at 530.
The Court said definitively that Babcock applied, and
that Babcock’s allowance for union access in unusual
circumstances was very narrow. Id. at 534.
The Court explained that while Babcock allowed
for an exception when employees could be reached no
other way, “[t]here is no hint in Hudgens and Central
Hardware, however, that our invocation of Babcock’s
language of ‘accommodation’ was intended to repudiate or modify Babcock’s holding that an employer need

11
not accommodate nonemployee organizers unless the
employees are otherwise inaccessible.” Id. The Court
continued: “Indeed, in Central Hardware we expressly
noted that nonemployee organizers cannot claim even
a limited right of access to a nonconsenting employer's
property until ‘after the requisite need for access to the
employer's property has been shown.’” Id. (quoting 407
U.S. at 545). Therefore, “in practice, nonemployee organizational trespassing had generally been prohibited except where unique obstacles prevented nontrespassory methods of communication with the employees.” Id. at 535 (internal quotation marks omitted). “So
long as nonemployee union organizers have reasonable access to employees outside an employer’s property, the requisite accommodation has taken place. It
is only where such access is infeasible that it becomes
necessary and proper to take the accommodation inquiry to a second level, balancing the employees’ and
employers’ rights.” Id. at 538.
The Court provided examples of the few times
when Babcock’s test could be met: an isolated mining
camping or a remote mountain resort hotel. Id. at 539.
But as long as employees can participate in “the ordinary flow of information that characterizes our society,” Babcock’s exception will not apply. Id. at 540. Today, with instant access to the Internet from the palm
of your hand, and micro- and geo-targeting of marketing through social media, it is hard to imagine any circumstance where Babcock’s test, as explained in
Lechmere, could ever be met. Union organizers have
numerous alternative tools to find, target, and reach
workers without the need to strip employers of their
property rights.

12
A few years later, the Court summarized Lechmere
and Babcock together in a single sentence with an
opening phrase that makes clear the point: “And, of
course, an employer may as a rule limit the access of
nonemployee union organizers to company property.”
NLRB v. Town & Country Elec., 516 U.S. 85, 97 (1995).
Yet, the Ninth Circuit decided to ignore this Court’s
precedent in Lechmere and follow PruneYard instead.
This was a fundamental mistake that revives a longembalmed case and makes a mess of this Court’s otherwise consistent takings doctrine.
Not only has this Court declined to apply PruneYard outside the context of the public portion of a
shopping center, as explained above it has repeated affirmed the right to exclude, even in a public shopping
center, in the context of labor organizing, holding that
Babcock applies to determine the balance between the
rights of unions to organize and the property rights of
employers to exclude — and repeatedly emphasized
that the balance tilts towards property owners outside
of extraordinary circumstances.
If anything, the Petitioners’ right to exclude here is
stronger than in those other cases where the Court has
already recognized a right to exclude. This is not an
open-air shopping district, a public shopping mall, or
even a public retail parking lot. PruneYard’s allowance
for a state subordinating private property rights in the
context of a public space for core First Amendment activity should not apply to a private property owner who
operates a private space. Lechmere, decided 12 years
after PruneYard, makes the point clear — that case
limited union invasion of private property rights even
in the case of a parking lot. 502 U.S. at 530. Moreover,
the Babcock exception is not even arguably applicable

13
here: Petitioners’ employees live in hotels off-site, see
Pet. App. G-9 ¶¶ 26–27, Pet. App. G-11 ¶ 36, and can
therefore be readily communicated to without violating Petitioners’ right to exclude. There is simply no
justification for the State of California to override the
employers’ Fifth Amendment rights under current
precedent.
CONCLUSION
Since Babcock was first decided in 1956, this
Court’s jurisprudence on the right to exclude versus
the right to organize has consistently, though not completely, prioritized the common-law rights of private
property owners over the statutory rights of labor organizers. When state action is present, as it is here,
that common-law right to exclude is a constitutional
right to prevent a taking. The Ninth Circuit’s use of
PruneYard is contrary to this Court’s later development of the doctrine, especially in Lechmere, and this
error should be corrected.
Respectfully submitted,

January 7, 2021

Jeffrey M. Schwab
Counsel of Record
Daniel Suhr
Reilly Stephens
LIBERTY JUSTICE CENTER
208 LaSalle St., Ste. 1690
Chicago, IL 60604
(312) 637-2280
jschwab@libertyjusticecenter.org

